<html>
<title> - TRANSPORTATION'S ROLE IN SUPPORTING OUR ECONOMY AND JOB CREATION</title>
<body><pre>[Senate Hearing 112-817]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-817
 
    TRANSPORTATION'S ROLE IN SUPPORTING OUR ECONOMY AND JOB CREATION 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 26, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works

       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

85-222 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arizona
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 26, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     6
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    60
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    61

                               WITNESSES

Martinovich, Hon. Susan, president, American Association of State 
  Highway and Transportation Officials, director, Nevada 
  Department of Transportation...................................     8
    Prepared statement...........................................    10
Dorey, William, director and past president/CEO, Granite 
  Construction Company...........................................    22
    Prepared statement...........................................    25
    Responses to additional questions from Senator Boxer.........    32
Poupore, Raymond J., executive vice president, National 
  Construction Alliance II.......................................    33
    Prepared statement...........................................    36
    Responses to additional questions from Senator Boxer.........    39
Johnson, Wayne, manager, Carrier Relations, Owens Corning........    39
    Prepared statement...........................................    42

                          ADDITIONAL MATERIAL

Participants in a Briefing on March 29, 2010:
    Lewis, Michael P., director, Rhode Island Department of 
      Transportation.............................................    67
    Saletin, Jeffrey, real estate developer......................    70
    Cardi, Stephen, president, Construction Industries of Rhode 
      Island.....................................................    73
Statements:
    The American Society of Civil Engineers......................    83
    Voigt, Gerald F., P.E., president and CEO, American Concrete 
      Pavement Association; Acott, Mike, president, National 
      Asphalt Pavement Association; Garbini, Robert A., P.E., 
      president, National Ready Mixed Concrete Association; 
      Wilson, Jennifer Joy, president and CEO, National Stone, 
      Sand and Gravel Association; McCarthy, Brian, president and 
      CEO, Portland Cement Association...........................    88
    Nagle, Kurt J., president and CEO, American Association of 
      Port Authorities...........................................    91


    TRANSPORTATION'S ROLE IN SUPPORTING OUR ECONOMY AND JOB CREATION

                              ----------                              


                      WEDNESDAY, JANUARY 26, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Baucus, Cardin 
and Whitehouse.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. The hearing will come to order.
    Good morning. I want to welcome everyone to the first 
hearing of the Environment and Public Works Committee for the 
112th Congress. I am very happy to be here with my Ranking 
Member, Senator Inhofe.
    Before I begin to make my remarks about today's hearing, so 
before we start the clock, I want to take a personal privilege 
to just thank the committee for all of our work last year. I 
thought it would be worthwhile, and I will put this in the 
record, to quickly go through, just reflect on our significant 
accomplishments.
    The committee approved 69 pieces of legislation in the last 
Congress. We worked to enact 30 bills, including both measures 
that EPW reported and bills in EPW's jurisdiction for which the 
committee contributed directly to the Senate passage and 
enactment.
    I would like to again thank the Members of the committee 
across the aisle. Their cooperation and bipartisan efforts were 
critical to our success.
    I am going to just mention a couple of measures that we 
passed, and recognize the Members whose hard work contributed 
to the passage of the bills. Multiple Members worked on the 
HIRE Act, which took important steps to create jobs for 
American workers, including of course, what we did in that 
bill, was the extension of highway transit programs. I would 
like to say that Senator Inhofe was extremely important in 
making sure that we extended the highway programs. Because it 
would have been a disaster for our States.
    Senators Carper and Voinovich worked to pass the Diesel 
Emission Reductions Act. Senators Klobuchar and Crapo worked 
together to pass the Formaldehyde Standards for Composite Wood 
Products Act. Senators Cardin and Voinovich and numerous others 
worked to pass the bill that ensures the Federal Government 
pays its fair share of storm water pollution fees for Federal 
buildings around the Country.
    I was so proud that Senator Inhofe and I worked together to 
introduce and pass the Reduction of Lead in Drinking Water Act, 
which strengthened and clarified standards to protect people 
from toxic lead in drinking water by reducing the allowable 
lead content in drinking water pipes, pipe fittings and 
plumbing fixtures. When we did this, we worked with all the 
parties concerned. It was a proud moment. It was hard to get 
something done, because just one colleague, as you know, 
Senator, could have stopped that bill. But due to your efforts 
on your side of the aisle, and I worked on mine, we were able 
to clear the decks and do this.
    So I just want to say, there has been a lot of talk about 
bipartisanship after the tragedy affecting our colleague and 
friend, Gabby Giffords. We wish her all of our strength to get 
well.
    But I want to say that we work together. When we don't 
agree, we don't agree, and that's fine. We understand. But we 
do in this committee work together and get some very important 
work done. I will put the whole statement of mine into the 
record and again thank everybody.
    So I will make my comments on today's hearing in 4 minutes. 
I would like to reiterate that economic recovery and job 
creation are top priorities for this committee. That is why we 
are having our first hearing on transportation. Transportation 
is so key, and it has a lot of bipartisan support. I am working 
closely with Senator Inhofe on the next Surface Transportation 
authorization.
    Last night, I saw with the Chairman of the House 
Transportation and Infrastructure Committee, John Mica, at the 
State of the Union. He agrees with me, that enacting a 
transportation bill should be a priority. It was really great 
to sit with Congressman Mica yesterday. I think it was a symbol 
of the fact that we are going to work together.
    I was pleased to hear President Obama highlighting 
investments in transportation as part of the State of the Union 
address. I welcome his commitment. I am already starting to 
work, again, with Senator Inhofe's staff, other colleagues and 
across the aisle and across the Congress divide, the House and 
the Senate, together to get a hearing.
    Today's hearing, which is focused on transportation's role 
in supporting our economy and job creation, is part of our 
early effort to get a bill going in 2011. I don't think it is 
good to keep extending the old bill, extending and extending 
it. We have new challenges, new priorities, and we have new 
demands. We need to update those.
    I want to say again something I say often. According to the 
Department of Transportation, every $1 billion in Federal money 
for transportation that is matched by State and local funds 
creates approximately 35,000 jobs. These jobs are needed today. 
According to the Bureau of Labor Statistics, in 2010, the 
unemployment rate in the construction industry was 20.7 
percent, 20.7 percent, more than twice the Nation's 
unemployment rate of 9.4 percent.
    High unemployment in construction has a big impact on our 
overall economy. According to the American Road and 
transportation Builders Association, the transportation 
construction industry in the United States supports the 
equivalent of more than 3 million full-time jobs, generates 
over $80 billion, and it is nearly 3 percent of the U.S. gross 
domestic product.
    So we are talking about jobs, we are talking about benefits 
to the traveling public and shortened travel time, increased 
productivity, improving travel time reliability, improving 
safety, reducing congestion. We know that a good transportation 
system will enhance the productivity of businesses and 
individuals. I could tell you from my State, when I talk to my 
people, regardless of their party, regardless of what they do, 
regardless of whether they are middle class or they have 
someone driving them in a car, they are spending too much time 
in a car. They like their car, but not that much. They would 
like to have it be a much more efficient system. I don't think 
there is disagreement anywhere on that.
    So in closing, I will cite the Texas Transportation 
Institute's 2010 Urban Mobility Report: American's waste 4.8 
billion hours a year sitting in traffic due to congestion. This 
translates to almost $4 billion in extra fuel consumed, $115 
cost to the Nation when you factor in the cost of fuel and the 
lost productivity.
    Our witnesses today are testifying on behalf of the 
American Association of State Highway and Transportation 
Officials, Associated General Contractors of America, American 
Road and Transportation Builders, National Asphalt Pavement 
Association, National Stone, Sand and Gravel Association, 
International Union of Operating Engineers, United Brotherhood 
of Carpenters and Joiners, National Industrial Transportation 
League. So we have everybody here today, from labor, from 
business, from government.
    I said that was my last point, but in my 10 seconds, well, 
I actually went over, let me say this. I am a little disturbed 
at what the House did when they said they had torn down that 
wall that separates the Highway Trust Fund from everything 
else. We need those funds for transportation. They shouldn't be 
raided for anything else. They shouldn't be used to mask the 
deficit.
    I don't know how everyone on the committee feels about it. 
But I just want to say, as Chairman of this committee, I am 
going to do everything I can to make sure that that wall is not 
torn down. Because this is a priority for our Nation.
    Thank you very much, and I am very happy to yield to 
Senator Inhofe and give him a couple extra minutes if he has 
some interesting things to say, in addition to his normally 
interesting things.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Madam Chairman, I have a brief opening 
statement that I will submit for the record. Let me just 
comment on a couple of things, responding to your comments.
    It disturbs a lot of people that Barbara Boxer and Jim 
Inhofe are good friends. We really are. People don't understand 
it. We don't have a lot in common. When she talks about things, 
needs in California, they are not always the same that we have. 
In this committee, this is a huge, some of my House colleagues 
don't understand that this committee, Environment and Public 
Works, is the same as two committees in the House. They have 
the T&I, I used to be in that many years ago, Transportation 
and Infrastructure, then of course the other stuff is in their 
environmental and other committees.
    But we have it all. In ours, we disagree. Right now, one of 
my major efforts is to try to explain to people how this over-
regulation stuff is costing, there is a price tag to it. I am 
talking about endangerment findings, the things we are going to 
be doing, the boiler MACT, the utility MACT, the ozone, the 
hydraulic fracturing, all these things that they are trying to 
do through the EPA that I think are costing.
    It is an interesting thing, I commented when I was 
introducing myself to our panel, I have a lot in common with 
them, because I used to do that for a living. I was a builder 
and a contractor, not in roads, but in other things. So I 
understand from a different perspective how this goes. But 
Barbara and I agree wholeheartedly, well, let me put it this 
way, she is a proud liberal, I am a proud conservative. I was 
ranked, currently ranked No. 1 by the National Journal as the 
most conservative member of the U.S. Senate.
    Yet, I am a big spender in some areas, three areas. For 
example, it would be national defense, infrastructure, what we 
are talking about today and then others, unfunded mandates, 
which I think some of the people in this room know what that 
is.
    So I really do want to have a robust bill. When we did our 
bill in 2008, it was Barbara and me, hand in hand, going in 
there, taking on a lot of the people who didn't want to do 
this. It was difficult. But it was a very robust bill.
    Secretary LaHood was in my office this morning. We were 
talking about, what can we do with just the trust funds that 
are out there, if you take the transit part out, you would be 
talking about around $230 billion in a 6-year bill. It is not 
adequate. I think we would probably say, or you would probably 
agree that it really just doesn't even maintain what we have 
today. This is something that we really need to do.
    I am going to throw out one thing that is not popular with 
a lot of the liberal thinkers. Back in the old days, when I was 
in the House, before I came to the Senate in 1994, we always 
had surpluses in the Highway Trust Fund. What that did was 
attract other people, hitchhikers to come in and get in on that 
deal, because there was a surplus there. As a result of that, 
there are a lot of things that are in the Highway Trust Fund, 
that come out of the Highway Trust Fund, that I don't believe 
should.
    Now, here's the dilemma I have, and I am just going to drop 
it on the whole committee and the witnesses, that our problem 
in getting the bill that we need to get is really not as much 
the Democrats as it is the Republicans. Because I can hear it 
right now, we will get them to the floor and say, wait a 
minute, we have museums in here and we have these other things. 
My thinking is, the best way I could get the full cooperation 
of the Republicans, if we took this back the way it was 
originally. We had the Highway Trust Fund, and people who paid 
to use our highways were, confined it to maintenance, new 
construction, bridges, highways. That would be sellable to the 
conservative community.
    It is a hard thing to do, because I know there are a lot of 
people who disagree with me on this. But it is just something 
that you and I talked about before that we may have to kind of 
get a little--I have to take away that argument. I guess that 
is the best way of saying it.
    So anyway, I am just as enthusiastic about trying to get a 
robust bill as my Chairman is. We are going to do everything we 
can. I appreciate you folks coming from the unique positions 
you are coming from, because you can ask questions a lot of 
bureaucrats can't. So I appreciate it and this hearing.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    As we begin the 112th Congress, I think it very appropriate that 
the committee starts with a hearing on the importance of infrastructure 
spending on jobs and the economy. The Chairman and I share a very 
strong belief in Federal infrastructure spending and the need for a 
robust multi-year highway bill. I am frequently ranked the most 
conservative Senator, most recently by the National Journal. The 
Chairman is a proud liberal. Yet, we are a great team on infrastructure 
issues.
    I'd like to take a moment to comment on last night's State of the 
Union. I have always said that government has three spending 
responsibilities: defense, infrastructure, and unfunded mandates. We've 
heard President Obama talk about infrastructure before, but there has 
been little follow through. For example, the President's so-called 
Stimulus bill, which was largely sold to the American people as a way 
to improve our infrastructure, actually spent less than 3 percent on 
repairing the nation's crumbling roads and bridges. Another example was 
this past Labor Day's announcement where he promised a $50 billion plan 
for infrastructure, but no action ever followed and he never spoke of 
it again. In light of this, I was interested to hear him highlight our 
infrastructure needs again last night. I hope he actually follows 
through. If he is serious this time, I am committed to working with him 
and Senator Boxer, as I have always done, to address our nation's 
infrastructure needs.
    The challenges of getting a highway bill completed this Congress 
are significant, but I hope we are going to overcome these challenges. 
For years, I have been leading the fight in Washington for increased 
spending on transportation and infrastructure, because I believe 
strongly that there are very few forms of government spending that are 
beneficial to our citizens and the economy. Infrastructure spending is 
one of them.
    Many of my colleagues do not view infrastructure funding as one of 
our primary Federal responsibilities. Yet there is an undeniable link 
between a robust economy and a strong transportation network. As we 
move to address our debt crisis, I will ensure the need for public 
infrastructure funding is part of the deliberations. That said, it 
can't be business as usual.
    The trust fund has always enjoyed large surpluses, and over time, 
policies have been added that were not the original intent and are not 
consistent with the compact we have with those that pay the gas tax. 
I'm always surprised by some of the things that are funded, like State 
capitol domes, ferry boats for tourists, and recreational bike trails. 
I know these types of things only make up 3 or 4 percent of the bill, 
but they give people an opportunity to demagogue the entire program as 
wasteful and misguided. It is the same as earmarks, which make up less 
than 1 percent of discretionary spending. I won't be able to get my GOP 
colleagues to support a bill that does not refocus trust fund dollars 
on our crumbling infrastructure.
    There are tremendous challenges involved in passing a multi-year 
highway bill, but the most immediate is that the Highway Trust Fund can 
no longer support spending significantly more funds than we collect in 
gas taxes. Congress must be very bold in crafting a highway bill that 
balances the funding realities with the tremendous needs of our 
infrastructure, which is the backbone of our economy. We have avoided 
this conversation for several years now, but if we fail to act, the 
consequences will be severe. They can no longer be ignored. I look 
forward to working with Senator Boxer and the rest of my colleagues on 
striking a balance that is both responsible and passable in the Senate.

    Senator Boxer. Senator, thank you. I think everything has 
to be on the table, and we have to look at every single thing, 
from both sides' perspective and try to hammer something out. I 
look forward to it. A real leader in transportation has 
arrived, Senator Lautenberg.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much.
    With the President's message last night and our necessary 
focus here on infrastructure, I think that we are maybe 
arriving at a point in time when we are going to get serious 
about this and get things done. The Country has arrived at a 
crossroads; we can move our economy forward and create jobs by 
strengthening investments in our roads, bridges and mass 
transit systems. Or cut these investments and see our 
infrastructure crumble in front of us.
    As President Obama noted in last night's State of the Union 
address, the United States will lose its competitive edge if we 
don't invest in our future. The Country is on the edge of some 
significant disintegration with our infrastructure. It is a 
subject that I have worked on since I have been here. The fact 
that we haven't made much progress doesn't speak well for me. 
But the fact is that we haven't had the appetite or the 
willingness to put money into something that has a long-term 
payoff and look forward to the shorter-term things that satisfy 
current interests.
    Incredibly, some want to solve our economic problems by 
cutting investments in our infrastructure. It doesn't make 
sense. In my State, the largest public works project in our 
Country, a much-needed a long-planned a second rail tunnel 
under the Hudson River, was just canceled. A lot of work had 
gone into it. We had commitments on the funding. But we had 
disagreements within the administration of our State.
    This project would have created 6,000 construction jobs 
annually, and added another 44,000 permanent jobs when 
construction was completed. As we have seen, two other States, 
Ohio and Wisconsin, just dropped plans for major high speed 
rail projects. Now, if our Country continues on this path, we 
are going to fall behind countries like China, surging ahead in 
the global race for high speed rail, freight rail and 
transportation infrastructure. China's investments will 
dramatically boost its trade capabilities and strengthen its 
standing as an economic powerhouse. Investing in transportation 
infrastructure is a jobs program that would help put our 
Country back to work.
    For every dollar invested in infrastructure, the economy 
reaps $1.59 in return. That is a pretty good yield. Across 
America, hundreds of thousands of construction workers are 
ready to get to work and build the infrastructure we 
desperately need to carry us into the future. Those who say we 
can't afford these investments are ignoring some of the 
greatest public works achievements in our Country's history. 
Construction began on the George Washington Bridge in 1927, not 
a particularly good year to be engaged in major projects. It 
continued through the Great Depression, opening for traffic in 
1931. Today, that bridge, right in my neighborhood, I live a 
few blocks from it, carries more than 50 million vehicles 
annually. I am not depending on my count, that is what the Port 
Authority is publishing, 50 million cars. Can you imagine what 
our Country, let alone my State of New Jersey would look like 
now if we had thrown up our hands during the Depression, said, 
sorry, we can't afford a new bridge right now? New Jersey would 
not be the vibrant State it is today if we failed to make those 
investments during the last century.
    We have a proud history of making transportation a 
priority, as demonstrated by great public works projects like 
the Interstate Highway System. It remains the envy of the 
world. We would be making a huge mistake if we put progress on 
pause. We have to arise to the occasion again, because these 
aren't just investments in transportation. They are investments 
in our people and our future prosperity.
    Just for a moment, look at what is happening in China, 
building railroads that will be going in the hundreds of miles 
an hour. While America, I think, retreats more toward the 
rickshaw. It is quite a reverse of conditions. We can't let 
that happen.
    Thank you very much, Madam Chairman.
    Senator Boxer. Well, we will have to take the rickshaw 
section of our bill and change it.
    [Laughter.]
    Senator Inhofe. Madam Chairman, you might tell our people 
who are here, our witnesses and others who are here present, 
the reason we don't have more Members here, the Chairman and I 
don't know who our Members are. We are to find out today. This 
is not the President's fault, it is not the Democrats' fault or 
the Republicans, but a little bit of everybody's.
    Senator Boxer. Right.
    Senator Inhofe. This should have been done a month ago.
    Senator Boxer. Right. I think right now, as we speak, 
Senator Reid has called a meeting to decide who is on the 
committee. I think Senator McConnell has done the same for this 
morning.
    Senator Inhofe. Yes.
    Senator Boxer. But just from what I know, we'll look pretty 
much the same. A couple less people, but we'll look pretty much 
the same on our side. I don't know about, and even Senator 
Inhofe doesn't know exactly.
    Senator Lautenberg. Madam Chair?
    Senator Boxer. Yes?
    Senator Lautenberg. Is it fair to say the verve will 
continue?
    Senator Boxer. The verve will continue, yes, the bipartisan 
verve.
    All right. We are going to get to our wonderful witnesses, 
who are so important today. I am really looking forward to your 
testimony.
    So we will start with Ms. Susan Martinovich, director, 
Nevada Department of Transportation, on behalf of the American 
Association of State Highway and Transportation Officials. 
Welcome.

   STATEMENT OF HON. SUSAN MARTINOVICH, PRESIDENT, AMERICAN 
  ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS; 
         DIRECTOR, NEVADA DEPARTMENT OF TRANSPORTATION

    Ms. Martinovich. Thank you, and good morning, Chairman 
Boxer, and other distinguished Senators.
    I am Susan Martinovich. I am the president of the American 
Association of State Highway and Transportation Officials and 
director of the Nevada Department of Transportation. I thank 
you for the opportunity to provide you with information on the 
importance of transportation to the economy and to creating 
jobs.
    On behalf of the State DOTs that I represent, I need to 
make this first point as clear as I can. Federal Transportation 
funding is crucial to State, the economy and job creation. We 
need to continue the Federal aid program and sustain nothing 
less than current levels of funding.
    A year ago, in a report titled Projects and Paychecks, 
which documented the thousands of construction jobs Congress 
funded in 2010, I said the following: ``When you put money into 
transportation, you are putting engineers and contractors to 
work, and putting to work the people who provide the materials, 
the gravel, the asphalt and the concrete.'' So what I can tell 
you from personal experience in Nevada is that transportation 
investment creates jobs.
    It also comes with a return. It is a return that can be 
seen, touched and used. It is used by billions of users every 
day and for decades to come. That truly is sustainability.
    Last year, States delivered $24 billion in stimulus funding 
which is repaving 35,000 miles of highways, repairing 1,300 
bridges and reducing congestion and improving safety. The 
overall investment being made by Federal, State and local 
governments in highways, transit, rail, ports and airports each 
year comes to approximately $240 billion. You both mentioned 
the jobs that are created with that investment.
    My written testimony details what this investment to 
infrastructure means. You can see the numbers, and you know the 
large magnitudes of numbers, including access for billions for 
travel and the tourist industry, that is one of Nevada's and 
many States' major economies.
    But I don't want to go into specifics. I want to talk about 
the importance of highway dollars to the people that I work for 
in Nevada. We recently had an overlay maintenance project on 
Interstate 80 through Lovelock, Nevada. Lovelock is 90 miles 
from Reno, and like many rural parts of this Country, that is a 
very, very, long, desolate 90 miles. An owner of one of the 
motels in town told me, during construction, that the hotels in 
town were busy, the restaurants were busy, the stores were 
busy, and it really kept people from being laid off from their 
businesses. He asked me then, when would we start on another 
project.
    Contractors in our State tell me that they need a backlog 
of 3 years of work to keep their crews together. Currently, 
many see only 6 months on the horizon. With that uncertainty, 
they can't plan or buy equipment or supplies, and they can't 
assure jobs for existing staff, let alone include training or 
internships for apprentice or minority worker programs. That 
really hits home to me on a personal level, as my son is a 
sergeant in the U.S. Marine Corps, recovering from serious 
wounds. He and many of his fellow Marines spent time in 
Afghanistan building infrastructure. Transportation is an 
industry that can provide jobs for these warriors. They are 
jobs that they are skilled to undertake, but they are not 
assured to be there.
    The answer I gave that hotel owner in Lovelock, and the 
design professionals who work for us, and the contractors and 
the suppliers that we depend was, I didn't know. I don't know. 
Investment in transportation should be easy. It has been said 
that there are no Republican or Democrat roads, highways, buses 
or bridges. We all know that investing in Transportation puts 
people to work immediately. Most importantly, the American 
public can really see what the money that they are investing 
goes toward. They can see long-term results.
    I am going to end my testimony with a quote from General 
Roy Stone, who was the Federal official in charge of highway 
improvement in 1892. He said the following, and I believe it 
still holds true today: ``The tax of bad roads is more evenly 
distributed than any other. It falls alike on producer and 
consumer, but with a special weight on the poor in towns and 
cities who depend on good roads to make a living. Road 
improvement would bring relief to every class, and give years 
of prosperity to the whole Country.''
    Senators, States believe that jobs are at stake and that 
our future is at stake. We talked about the economy and 
competition worldwide. We need Congress to pass a well-funded 
highway and transit program this year that is also multi-year. 
If you can help, we will do everything we can to help you, and 
we will deliver.
    I thank you for this opportunity to testify.
    [The prepared statement of Ms. Martinovich follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much, Director Martinovich. I 
thought you were very eloquent, and we thank your family's 
contribution to this Country. We really do. How is he doing?
    Ms. Martinovich. He is doing wonderful. The medical 
research that occurs and the care that our soldiers get is just 
phenomenal, and the support they have for the families is 
wonderful. Thank you.
    Senator Boxer. Thank you so much.
    You have also given me an idea, one I will talk to my 
friend about, who is such a leader at protecting our men and 
women in uniform. Maybe there is a way that we could talk about 
jobs for our wounded warriors. I think that is related to this 
bill. Thank you.
    Mr. William Dorey, director and former president and CEO of 
Granite Construction, Inc., on behalf of the Associated General 
Contractors of America and the American Road and Transportation 
Builders Association, welcome back.

 STATEMENT OF WILLIAM DOREY, DIRECTOR AND PAST PRESIDENT/CEO, 
                  GRANITE CONSTRUCTION COMPANY

    Mr. Dorey. Thank you. My clock is broken, so you may have 
to give me a high sign if I start to run a little long.
    I am Bill Dorey, recently retired from Granite Construction 
Company. I spent 42 years there in the transportation 
construction business. I started in 1968, very small central 
California paving company. Over the course of the last 42 
years, a very dedicated group of people managed to grow that 
company from a private central California business to a 
national business with revenues approaching $3 billion and a 
company that is now traded on the New York Stock Exchange.
    So it has been a lot of fun. I learned a lot along the way. 
Certainly gained, I think, a perspective with regard to 
transportation in this Country. Our business today builds work 
from Alaska to New York City. Probably the most notable project 
we are involved in today is the transit facility rebuild at the 
World Trade Center, the Path Station. We are very, very honored 
to be part of that project.
    I am here to offer a perspective on what I think is a 
crisis in this Country as it relates to Transportation. We own 
a huge network of facilities. We are not maintaining them. As a 
result, they become less and less efficient, because we are not 
putting the investment back into those facilities that we need. 
I think President Obama talked about this last night, I think 
he was right on target with regard to investing in our 
infrastructure.
    Senator Inhofe suggested he was a spender. I would argue, I 
think it is an investment. There is a big difference between 
just spending money to be spending it an investing it to get a 
return. I think the infrastructure in America is an investment 
and we do need to prepare our Country to compete with countries 
that have either made that commitment or are making that 
commitment to build their infrastructure. There are some very, 
very tough customers out there that we have to compete with on 
a global scale. We absolutely cannot allow ourselves to be 
operating without the appropriate tools.
    There is an undeniable need for maintenance, minimal 
maintenance in this Country. This is not me necessarily saying 
this. There have been numerous blue ribbon panels that have 
been assembled over the last several years. The most recent one 
was the President's National Commission on National 
Responsibility and Reform. This panel came to the same 
conclusion that others had, that we are not making the 
investment in infrastructure that we need to, and we are 
falling further and further behind. We are not keeping pace 
with growth. Vehicle volumes and the use of our system, our 
system is basic for economic growth and it is basic for 
sustainable job creation, particularly sustainable job 
creation.
    There should be no dispute that the money we spend to 
maintain and grow our infrastructure is an investment. If you 
think about the Interstate system that was built in the 1950s 
and 1960s, think about what that did for our economy. Had we 
not done that, where would we be today? I would argue that we 
have received a tremendous return on that investment. We 
created millions of jobs directly and millions more indirectly. 
Most businesses could not exist without that infrastructure. We 
can name them: tourism, manufacturing, warehousing, trucking, 
agriculture, forestry, mining, retailing and so on. As I think 
Senator Boxer suggested, ARPA has some facts around that 
subject, 78 million jobs are dependent on transportation, $2.8 
trillion in payroll, $235 billion in State and Federal payroll 
taxes.
    We are not keeping up. Many are suffering. I do want to 
talk a little bit about the job situation in the construction 
industry, because we are feeling it directly at Granite. There 
is a 20 percent unemployment rate in the construction industry. 
It is staggering. I have not seen anything like this in my 
career. Demand for construction materials is down 30 to 40 
percent. Specifically at Granite, in 2007, we had 2,200 
salaried professional and administrative staff. We currently 
have 1,500. We have laid off 700 people. These are our salaried 
employees, not including our craft workers, where man hours are 
down over 40 percent relative to where they were in 2007.
    This is a huge, huge problem for the American workers. It 
has been devastating for the families. Frankly, some of these 
families have worked for Granite their entire career, they have 
never worked any place else. We were faced with the very, very 
difficult decision of letting them go and trying to keep our 
company strong.
    I don't expect government to spend money to employ people. 
I don't think that is government's job, simply to spend money 
to employ people. But I do expect government to invest in the 
basic infrastructure that will support our economy. I am asking 
you to invest in America. Let's consider some statistics.
    Our interstate system was built in the 1950s and 1960s, and 
it is old. It had a design life of 20 to 40 years, and it is 
like an old car. If we don't take care of it, it is going to 
cost us more later than it will today. Sooner or later, you 
have to buy a new car. You just come to that, no matter how 
much you would like to not do that, sooner or later, you have 
to invest in a new one. We are behind the capacity curve. We 
are putting more and more cars on fewer and fewer lane miles 
all the time. One hundred and fifty thousand bridges in this 
Country are structurally deficient or functionally obsolete. In 
California, that number is 29 percent of the bridges in 
California fall into that category. That is one in four.
    Senator Boxer. Mr. Dorey, you have gone over, but you are 
so interesting. How about another 2 minutes?
    Mr. Dorey. OK, I can finish up.
    A quarter of our urban roadways are substandard or poor 
condition. Vehicle miles traveled in California has grown 10 
times faster than lane miles and continues to do so. If there 
is any wonder why we have congestion, that is it. Senator 
Boxer, you, I think, raised the question of the Texas Institute 
study. I am not going to repeat that. But interestingly enough, 
if USA Today is correct, that 4.8 million man hours compares 
closely to the 6 billion man hours that we waste filling out 
our tax returns. So that might put some perspective on how many 
hours that really is.
    The reason we are in this spot is because we haven't raised 
the primary funding mechanism for transportation in this 
Country since 1993. Over that course of time, inflation has 
eroded probably close to half of the purchasing power that we 
had in 1993, and fuel efficiency, by the way, has eroded even 
more purchasing power, as we are collecting less and less per 
mile driven because our cars and trucks are more efficient. 
That is good news and bad news, all at the same time. 
Efficiency is great, we should push for that always. There are 
lots and lots of other reasons, other benefits from that. But 
we are not collecting enough money to take care of our system.
    We can fix this problem. If we do this right, we can 
energize our Country. We can put people to work and we can 
encourage, I believe, fuel efficiency at the same time, which 
has merit. We cannot do this with short-term stimulus cash. 
This is a long-term proposition. I do not believe we should 
spend money we don't have.
    So I am a pretty conservative guy. If we are going to do 
this, we have to raise the money to do it. I do not think we 
should be spending money that we do not have. We cannot, by the 
way, rely on public-private partnerships to do this for us. It 
won't do it for us, and I can talk more about that if you like. 
It is a bipartisan issue. We need a fully funded transportation 
program right now to build the infrastructure of the United 
States. I thank you very much.
    [The prepared statement of Mr. Dorey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 Responses by William Dorey to Additional Questions from Senator Boxer
    Question 1. The House is signaling its desire to move forward with 
a 6-year bill funded at current revenues, about $34 billion a year 
(down front the current $41.5 billion). What would be the real impacts 
of this lower level on the U.S. economy?
    Response. Reducing transportation funding to $34 billion per year 
will guarantee that our transportation agencies will not have the 
necessary resources to keep up with the simple maintenance of our 
existing transportation system. Our transportation agencies are being 
asked to maintain an aging infrastructure with primary funding provided 
from a fuel tax that has not increased since 1993. The purchasing power 
of the fuel tax has been eroded by inflation and fuel-efficiency 
improvements to such a degree that, even at current funding levels, we 
are deferring critical maintenance. In addition, we will be unable to 
build the new capacity required to keep up with our growing population 
and to support a growing economy.
    With regard to employment, reducing transportation funding will add 
more pain to an already devastated construction economy.
     Despite the spending from the Recovery Act, the construction 
industry is already one of the hardest-hit segments of our economy. As 
I shared in my written testimony, construction sector unemployment 
stands at above 22 percent, and the construction materials industry has 
experienced decreases in demand for its products of 30 to 40 percent.
     According to the Transportation Research Board, we need an 
additional $50 billion each year in funding to properly maintain our 
Nation's transportation infrastructure, and we need an additional $100 
billion annually to meet the growing infrastructure needs of our 
economy.
     According to the recent report commissioned by the National 
Chamber Foundation, our nation's transportation infrastructure is vital 
to the success of our major economic sectors, accounting for 84 percent 
of the U.S. economy. Keeping our economy competitive is vital to the 
employment of our citizens and the economic health of our country. We 
must not yield to the pressure to cut our infrastructure investment 
funding. If we do, we will be risking further erosion of our economy 
and our quality of life.
    If Congress chooses to decrease its investment in infrastructure 
when it should be increasing it, Congress will ensure increased 
unemployment and decreased economic activity in the construction 
sector. Failure to maintain our transportation system will guarantee 
increased congestion and safety concerns, lost time, and higher 
maintenance obligations in the future.

    Question 2. I can't tell you how many hours the Chairman and I have 
put into trying to convince some of our colleagues that short-term 
extensions and the uncertainly of not having a long-term bill in place 
have on jobs and the economy. Can you please describe in your 
experience the impacts of short-term extension on State DOTs and the 
construction industry?
    Response. The design and the construction of an integrated 
transportation system that will be needed to ensure our ability to 
compete in the future is complex and will require a long-term 
commitment. This is not a 1-year or even a 6-year commitment if we want 
to do it right. If we do it right, we will energize our economy. We 
have the necessary agencies in place, staffed with committed, qualified 
people to plan and design our future. It is not efficient, and maybe 
not even possible, however, to keep America in front of our competitors 
if we attempt to build our future infrastructure without long-term 
funding commitments. Stopping and starting or trying to build our 
future with funding that will not even address the simple maintenance 
of our existing system will not get the job done.
    The major infrastructure investments facing this country, including 
new rail projects and increases to the capacity of the vital commerce 
corridors needed to move goods and services, require multiyear planning 
and project execution. The stopping and starting of our planning and 
building effort as a product of uncertain funding levels, as well as 
mixed messages from elected leadership, is not helpful to our ability 
to deliver these critical multiyear projects. While I will defer to the 
American Association of State Highway and Transportation Officials to 
opine on specific projects that are being delayed or canceled, I can 
assure you that companies like ours will not be investing capital in 
new equipment until we arc certain there will be adequate long-term 
program funding to justify the investment in that equipment.
    On a more personal note, at Granite we have had to reduce our 
workforce to size our business to match the demand for our services. 
This has dramatically affected many of our employees, whom we can no 
longer support and have had to let go. The construction industry can 
and should play an important role in rebuilding America's competitive 
capability. It is time to get serious about building the next-
generation transportation system. We can do it if we commit to a long-
term (20-year) plan and develop dependable funding to pay for it. 
Committed, stable and robust funding should come directly from users 
and should not require support from the general fund. I am happy to 
share my thoughts regarding the details of how that funding should be 
developed if you are interested.

    Question 3. Many people from both sides of the aisle strongly 
believe the highway program needs to be reformed. From a State's 
perspective, what changes, if any, would you propose to make the 
program work better?
    Response. There is a simple answer to this question and a more 
complex answer.
    The simple answer is that government sometimes spends money we do 
not have on projects we cannot afford and which do not provide a return 
to the taxpayer in the form of efficiency improvements. It may not 
always he crystal clear which projects provide the highest return, but 
to the extent possible we should require some economic analysis to 
justify how we spend our transportation dollars. We should (at least 
for now) fund projects that are shown to be necessary for critical 
maintenance and projects that improve the efficient flow of people, 
goods, and services. I also think we should (to the extent possible) 
further delegate the project selection process to the local officials 
who are closest to the issues in their communities.
    The more complex reform question is in regard to our vision for the 
future of transportation in America. The transportation system of the 
future can transform the Nation if we have the vision and the 
commitment to build it. This vision should include dedicated truck 
corridors to relieve congestion on our traditional highways and improve 
safety for our traveling public. It will likely include technology that 
will improve the capacity of existing highway systems, and it should 
include the integration of public transportation to a greater degree 
than it currently is. All of this is possible and, I would argue, 
critical if we want to be a leader in the twenty-first century. This 
will require strong leadership and commitment from Congress.
    The thinkers, agencies, and engineering talent are waiting on 
Congress to give them the green light to begin. Much of this vision is 
currently being constructed in other countries that are determined to 
get ahead of the United States. The technology already exists. The 
first step beyond committing to be the best and communicating that 
vision is to commit to robust, dedicated and dependable funding to make 
the vision a reality.

    Senator Boxer. Thank you, Mr. Dorey. I know how emotional 
you get when you talk about all these layoffs, because I know 
you have seen the pain. We thank you very much.
    Our next speaker is Mr. Poupore, executive vice president, 
National Construction Alliance. We welcome you.

  STATEMENT OF RAYMOND J. POUPORE, EXECUTIVE VICE PRESIDENT, 
               NATIONAL CONSTRUCTION ALLIANCE II

    Mr. Poupore. Thank you, Chairman Boxer, Ranking Member 
Inhofe and the distinguished Members of the Environment and 
Public Works Committee.
    On behalf of the National Construction Alliance II, a 
partnership between two of the Nation's leading construction 
unions, the Operating Engineers and the Carpenters, I want to 
express our appreciation for the opportunity to join you today. 
The two unions of the Alliance represent nearly 1 million 
workers, many of whom built the Nation's transportation 
infrastructure.
    Let me get right to the point, Chairman Boxer. The NCA II 
believes that an investment in transportation infrastructure 
right now in the short term is the single most important public 
policy initiative that we can take by the Federal Government to 
re-energize the national economy. Dedicating precious resources 
immediately to transportation, even in this time of fiscal 
constraint, makes sense, because first and foremost, it targets 
resources to the hardest-hit area of the economy, the area 
where jobs are most needed, the construction sector.
    Second, taxpayers are getting unique value in the 
construction marketplace with their investments. Under-utilized 
capacity in the industry has meant that bids are coming in 
lower than the engineers' estimates, enabling State and local 
governments to complete more projects and stretch tax dollars 
farther. As you know, these investments are literally the 
framework upon which the American business competes in the 
global economy.
    Let's give the private sector the tools that they need to 
keep America the most productive, efficient Country in the 
world. I will let the National Industrial Transportation League 
and others speak to the long-term benefits of transportation's 
role in the economy. I will focus my comments on the essential 
feature of the transportation investment to the National 
Construction Alliance: immediate job creation. Tens of 
thousands of members of the Operating Engineers and the 
Carpenters are out of work. Some have been unemployed for more 
than 99 weeks and lost their extended unemployment insurance 
benefits. Many local unions have been delivering social 
services to members rather than promoting their industries and 
matching skilled members to employers' work force needs. Times 
are tough. Once-proud local union halls have been transformed 
into food banks.
    Because the transportation industry is still suffering the 
worst unemployment that it has seen in a generation, an 
investment in infrastructure would inject public resources into 
the place it is needed most. An important analysis by the 
Federal Highway Administration of employment impacts related to 
highway investment say that over two-thirds of the direct jobs 
created by transportation investment are in construction. The 
same Federal Highway Administration study estimates that around 
10,000 direct construction jobs are created with every billion 
dollars invested in transportation.
    The current national unemployment rate, as you mentioned, 
Madam Chairman, is 20.7 percent, far and away the highest 
unemployment in the industry sector and more than double the 
unemployment rate of the national economy. Since December 2007, 
construction has lost almost 2 million jobs.
    Labor market problems in the construction industry are 
acute. Fixing them will no doubt help solve the economy's 
larger problems. Paychecks for these construction workers will 
drive broader consumer demand for goods and services.
    But I want to put a finer point on that 20.7 percent 
unemployment, Madam Chairman. The Super Bowl is coming up in a 
couple of weeks. That stadium where Dallas plays holds 100,000 
people. Picture 100,000 cheering fans in that stadium. Now 
picture 100,000 out of work construction workers. Now picture 
20 stadiums--that is what it is--20 stadiums full of unemployed 
construction workers that want to build our Nation's 
infrastructure, that want to work with their hands to help 
create the platform, the infrastructure that we need to compete 
in the global economy.
    You want to reduce the deficit? Put these people to work. 
They will be taxpayers instead of tax eaters. That is what we 
need to do.
    Yesterday I was up in Minnesota, and I met with the 
chairman and CEO of Ames Construction, his name is Ray Ames. He 
has a whole yard full of equipment sitting there. A lot of 
people not working. But he was telling me on the point of value 
for your dollar, if you have a billion dollar project now, you 
are doing it for about $250 million less than you were doing it 
3 or 4 years ago. So it is a great value for the taxpayers of 
America.
    Furthermore, when you build a road or a bridge today, it 
lasts over 50 years, another great investment. So Madam 
Chairman, we need to put America back to work. The people that 
I represent need jobs. That is why I am here, that is my voice. 
I totally agree with everybody else on the panel here what is 
needed. But we need help. As labor, we are willing to work with 
you and your committee. We appreciate the work that you have 
done in the past. We too believe that we need to protect the 
Highway Trust Fund, protect those firewalls, as you mentioned 
in your opening remarks. Very important to us.
    To my colleague on the panel, I would like to say that, in 
the labor movement, we have a program for veterans. It is 
called Helmets to Hard Hats. I can give you some information 
after.
    Thank you for the opportunity to address this great 
committee. Let's put America back to work. We want to be No. 1.
    [The prepared statement of Mr. Poupore follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Responses by Raymond Poupore to Additional Questions from Senator Boxer
    Question 1.  The House is signaling its desire to move forward with 
a 6-year bill funded at current revenues, about $34 billion a year 
(down from the current $41.5 billion). What would be the real impacts 
of this lower funding level on the U.S. economy?
    Response. From a construction union perspective, and the impact on 
construction workers, a reauthorization bill at $34 billion a year 
would he devastating. Construction unemployment is officially at 23 
percent according to U.S. Department of Labor figures from January. 
Construction unemployment would continue to be crippled for years to 
come if Congress were to adopt these lower authorization figures. Over 
and beyond the negative employment impact, a $34 billion funding level 
is completely inadequate to address this country's surface 
transportation infrastructure needs and provide the necessary levels of 
investment to allow us to compete more effectively in a global economy.

    Question 2. I can't tell you how many hours the Chairman and I have 
put into trying to convince some of our colleagues that short-term 
extensions and the uncertainty of not having a long-term bill in place 
have on jobs and the economy. Can you please describe in your 
experience the impacts of short-term extensions on State DOTs and 
construction industry?
    Response. Again, from the perspective of construction employees, 
short-term extensions do not allow for State DOTs to plan and implement 
larger, more complicated highway projects which would generate greater 
employment opportunities workers. Short-term extensions only lend 
themselves to short-term projects with fewer construction workers 
required to complete them. A long term, robust surface transportation 
reauthorization provides the binding necessary to plan major 
infrastructure investments and therefore, with a long term funding 
stream the State DOTs are in, a ``go'' mode and able to make the 
necessary infrastructure investments to get their States' 
transportation projects upgraded because they can count on a long term 
funding strategy.

    Question 3. Many people from both sides of the aisle strongly 
believe the highway program needs to be reformed. From a State's 
perspective, what changes, if any, would you propose to make the 
program work better?
    Response. The one point I would like to emphasize is that project 
delivery should be expedited. Reasonable environmental safeguards can 
be protected, but activist groups and others who seek to challenge 
major highway and transit projects should be given one ``bite of the 
apple'' and not be able to drag out opposition to projects over many 
years. This not only unnecessarily increases costs, but delayed 
projects preclude employment of the construction workers who are 
prepared to build them. There is way too much red tape from conception 
to actually building a road. Delays caused by various mandated studies 
can take up to 10 years.

    Senator Boxer. Thank you so much for your eloquence. The 
whole panel has been, from each side, just really eloquent.
     now our final speaker, Mr. Wayne Johnson, manager, Carrier 
Relations, Owens Corning, on behalf of the National Industrial 
Transportation League. Welcome.

 STATEMENT OF WAYNE JOHNSON, MANAGER, CARRIER RELATIONS, OWENS 
                            CORNING

    Mr. Johnson. Good morning, Madam Chairman, and Members of 
the committee. My name is Wayne Johnson, and I am the manager 
of Global Carrier Relations at Owens Corning's headquarters in 
Toledo, OH. I am also representing today the Industrial 
Transportation League. I am chairman of the group's highway 
committee. We have about 600-, 650-member companies in our 
association.
    We appreciate the opportunity to address the importance of 
the Country's transportation infrastructure to our economy and 
job creation. Owens Corning, the company I work for, depends 
heavily on transportation infrastructure and moves over 570,000 
shipments per year using all transport modes. Our production 
input and getting products to our markets depends on whether 
our company succeeds or fails. We are highly dependent on a 
viable transportation system that allows us to reach our 
customer in the United States and abroad in a timely and 
efficient manner.
    Delays caused by congestion on our highways, rail yards, 
intermodal connections and our ports leads to inefficiencies, 
longer transit times, missed schedules, production 
interruptions and so on. All these factors add cost to the 
manufacturing and distribution process. That inhibits our 
ability to add new workers and produce our products. Without an 
efficient transportation network, our return on investment is 
marginalized, since we are not able to make and sell our 
products efficiently and effectively.
    This is precisely why your hearing today is so important, 
not just for my company, but to the Nation as a whole. Ignoring 
the importance of improving our national transportation system 
places additional inefficiencies and uncompensated burdens on 
American industry and our economy. This translates into 
additional financial strain for companies and reduces our 
ability to make investments in people and equipment.
    Simply put, America is under-investing in its 
transportation infrastructure system. Ignoring this fact means 
we are not recognizing how it supports our economy and creates 
an environment for U.S. companies to sustain themselves and 
develop new opportunities for investment and growth. The 
consequences of under-investment and further neglect of our 
transportation infrastructure will compromise America's 
industrial competitiveness.
    For those companies that export, like Owens Corning, that 
will mean we will fall behind overseas companies in competition 
that is global and relentless. For major importers, like 
retailers, it would mean that the costs will soar for 
consumers. For exporters and importers, and the companies that 
do all the business of the United States, the result is the 
same. They will not be able to add jobs we all know that are 
needed to put our economy back on track.
    While our economy is improving, great recession has masked 
the problems we will see when the full recovery takes place. 
The truth is that these difficulties never went away. The choke 
points, the backups, the delays and other indicators of a 
deteriorating freight transportation system that are commonly 
discussed among supply chain and logistics professionals around 
the Country did abate during the recession. As we pick up steam 
and resume normal and growing production and consumption 
cycles, the underlying problems of the infrastructure neglect 
and deferred investments will again make themselves known.
    To keep our infrastructure working, making improvements 
cannot be turned on like a light switch. It requires years of 
planning and committed resources to make it happen. Through all 
our past efforts, we have never seriously considered or 
attempted to put in place a national freight transportation 
policy. Broadly speaking, this policy should integrate all 
transportation modes and supporting infrastructure in a 
comprehensive fashion. We can begin working toward this 
objective through the passage of a comprehensive multi-year 
surface transportation authorization bill.
    As part of this legislation, we must not permit the raiding 
of funds from the Highway Trust Fund, as has been proposed. As 
it has been for over a decade, this dedicated fund must 
continue to be used for the purpose for which it was 
designated. Users of our Federal highways should see the 
Federal taxes they pay go to maintaining and improving and 
expanding capacity on our highways, bridges, systems 
connections, and not for the purposes which have nothing to do 
with Transportation.
    Madam Chairman, 2011 is the year Congress must consider the 
authorization of a multi-year transportation authorization 
bill. We in industry understand the difficulties that you and 
your colleagues have in advancing a bill in the fiscal and 
political environment which demands reductions in government 
spending. Respectfully, I would ask that you look at spending 
on transportation infrastructure as an investment in the 
American economy and America's future, and not just a taxpayer-
funded program.
    I would hope that Congress would use the time it takes to 
consider a bill to discuss consequences of further delays in 
improvements to our transportation infrastructure. This dialog 
should also explore new substantial sources of revenue that 
might be applied to make the necessary investments to 
transportation possible. For the record, the League, the 
National Industrial Transportation League members have said 
repeatedly that we will be willing to pay our portion and our 
share of the costs, as we are both users and beneficiaries of 
the freight transportation systems. We are only too aware of 
the enormous cost of adding capacity and maintaining what we 
have and squeezing more out of what we have. Regardless of what 
the financing mechanism involves, whether it is taxes, user 
fees or other sources, the moneys we pay should not be diverted 
to non-transportation programs.
    Madam Chairman, I thank you for the opportunity to be here 
today. If I can answer any questions, I will be happy to do so.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much.
    For the benefit of Members, this is the order of arrival: 
Boxer, Whitehouse, Lautenberg, Cardin and Baucus. Boxer, 
Inhofe, Whitehouse, Lautenberg, Cardin and Baucus.
    So I will start, everybody will have 5 minutes for 
questions, or you can use it as an opening, whatever you want 
to do.
    I would start of by asking Mr. Dorey, what would the impact 
be on the construction industry if transportation was funded on 
an annual basis through the regular appropriations process, 
rather than through long-term authorization with guaranteed 
funding?
    Mr. Dorey. I want to make sure I understand the question. 
Is the question, what would happen to the industry if we simply 
spent what we collected in user fees?
    Senator Boxer. No. The question is, rather than doing a 
highway bill for 3 years, 4, 5 or 6, where we flesh out the 
programs, so we know what it is, if we just scrapped all that, 
and some have suggested this, not anyone I know on this 
committee, and going just to appropriators to appropriate what 
they thought was necessary, a year at a time?
    Mr. Dorey. I can't comment on that. I suspect that my 
colleague to my right here could be a very good resource.
    My observation is this. To properly plan infrastructure, 
the 21st century transportation system, what I characterize as 
the transportation system of the future, it is going to be 
different than the one we have today. It is going to be more 
efficient, should be more efficient. It is going to be 
organized differently. I am not sure I can tell you what that 
is going to be, but I know it is going to be different, I know 
it is going to be better. It is going to take some thinking, it 
is going to take some planning to do that.
    We have the DOTs and various other terrific agencies in 
this Country to do that planning. But they can't do it if they 
don't know that there is a stable, reliable revenue stream to 
support that construction. You think about it from a practical 
standpoint, there is no point in having and spending all that 
intellectual energy to plan that system in the future if you 
know you can't build it. That is what we are faced with today.
    Senator Boxer. I don't have a lot of time left for my 
questions, but I think you hit the nail on the head there, and 
you worked your way to it, that knowing that you had this 
reliable stream, we have to fight it out every year.
    Mr. Dorey. Have to have a reliable stream.
    Senator Boxer. I am going to ask Ms. Martinovich a 
different question. What would have been the impact on the 
construction industry if the Recovery Act hadn't been passed? I 
would ask Mr. Poupore to comment on this. If the Recovery Act 
hadn't been passed to provide additional funding for 
transportation during these last 2 years.
    Ms. Martinovich. Thank you, Madam Chair. The impact would 
have been, the construction industry would have laid off people 
sooner. I think it bought more time to keep people working, 
keep supplies there. It also allowed the States to do 
improvement to infrastructure. We are behind in the condition 
of our pavements and our structures. So it provided that wave 
and that jolt of building and maintaining it. But what it did 
is it delayed a lot of workers from being laid off, and bought 
some time.
    Senator Boxer. Mr. Poupore.
    Mr. Poupore. Yes, Madam Chairman, the unemployment numbers 
in construction, as bad as they are, which is, depression 
numbers would have even been worse if we didn't have the 
stimulus. The only issue I had with the stimulus, there wasn't 
enough invested in infrastructure. I think we took a big knot 
for that with some people making comments about shovel-ready 
projects and stuff. Fact is, I did testify in front of the 
other committee last year actually on the stimulus. I do know 
that John Mica was very supportive of having a much larger 
investment in infrastructure back at the time of the stimulus, 
but we never, of course, got there. We only got, out of the 
total money spent, 3 percent to infrastructure.
    Senator Boxer. Right. Well, I think the Chairman and the 
Ranking Member agree on that point.
    My last question, the importance of funding to the States. 
We are going to see the transportation authorization expire on 
March 4th. It is coming right behind us. So I would ask Ms. 
Martinovich, what would be the impact on State departments of 
transportation if the funding for that extension were to be cut 
or delayed?
    Ms. Martinovich. Madam Chairwoman, in building on what my 
colleague said, is that right now, not knowing what is 
happening after March 4th, I will not be putting out projects. 
I cannot guarantee that projects will go out after March 4th, 
because I don't know how they are going to be funded. My own 
State can't pick up the difference between what we typically 
match the Federal funds with, whatever that percentage with, 
not knowing if we are going to be reimbursed.
    So it is fits and starts. If we can't plan, others can't.
    Senator Boxer. I think this is a really important point for 
every member of this committee. We are going to have to work 
hard to get this taken care of, sooner rather than later, or 
our States are not going to be moving forward with projects. A 
lot of us don't like this extension, extension. We really need 
to get to the larger bill. But until that time, I hope we can 
work across the aisle to eliminate this potential crisis. We 
have already heard of stadiums full of unemployed people, and 
businesses that are suffering and struggling.
    Anyway, I am very pleased that you are all here to answer 
those questions.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Mr. Poupore, I had a very interesting experience doing the 
coin toss at the Oklahoma-Texas game. It wasn't much of a game. 
But I was standing out there and doing the coin toss, 100,000 
people, and until you mentioned that, it really didn't even 
register to me, and I do this for a living, that it would 
appear that there would be 20 times that number of people who 
would be unemployed right now.
    Mr. Dorey mentioned some unemployment figures. Have you 
gotten together, are we all in agreement in terms of what has 
happened, in terms of unemployment in your industries?
    Mr. Dorey. I believe we are.
    Senator Inhofe. That is an important part of it. The most 
important part, however, is that one of the two major functions 
of Government, and you have heard me say over the years, 
national defense and infrastructure. We need to keep in mind 
that, I think back, Madam Chairman, when you and I put 
together, and several others on this committee also, the 2005 
very robust bill, even with that authorization bill, that 
really did nothing more than to maintain what we had today.
    So I think each one of you in your testimony has said we 
have to do it. That is fine. We all know, there is not a person 
up here at this table on this side or probably in this room 
that doesn't agree that we have to do it. Our big question is, 
how are we going to do this?
    I mentioned something, a problem that I personally have 
with the conservatives in the Republican party. To win them 
over, we have to go back to, as you mentioned, Mr. Poupore, go 
back to what is originally intended for bricks and mortar and 
streets and maintenance and bridges and new ones and maintain 
what we have now. That is when we had the surpluses. You heard 
in my opening statement that I said we have gotten away from 
that. I know it is very difficult, because there are a lot of 
things that are worthwhile projects that don't fall that into 
that category.
    In reality, I think that if you add all of that up, with 
the exception of mass transit, it wouldn't be more than 3 
percent. But 3 percent is all it takes on the Senate floor for 
someone to go there and talk about State capitol domes and 
museums and bike trails and all these things that are not, the 
American public, when they go to the pump and pay their tax, 
expect to receive.
    Now, that might be what I will have to have to get the 
Republican support to join the Democrat support to get this 
done. I just would like to kind of put the mark in the sand now 
that we are going to have to start addressing it from that 
perspective, if we are going to be able to get conservatives to 
join in and recognize what is really important on here, and 
that is what we originally intended.
    I started way back in the House, in the T&I committee, and 
then came to the Senate in 1994. So I have been involved in 
this for many, many years. I would like to have you comment on 
what you think about the idea, is if we were able to come up 
with a bill that merely had those things that, up until about 
10 years ago, were considered good projects and worthy projects 
and allowable projects for funds from the national trust fund. 
Start with you, Mr. Poupore.
    Mr. Poupore. Senator Inhofe, to be honest with you, I 
wasn't aware that there were other things in the infrastructure 
bill that aren't real infrastructure. When I talk about 
infrastructure, I talk about roads and bridges and 
transportation systems and water systems and what it takes to 
compete. In the global economy. I would think that when you buy 
a gallon of gas, you would think that that is money that goes 
into the Highway Trust Fund.
    Senator Inhofe. See, that is what the general public 
believes, until they hear someone on the Senate floor start 
talking about other things that have nothing to do with 
transportation.
    Mr. Poupore. I mean, I don't know all those specific 
issues, other than when I talk about infrastructure to my 
members, that I what we are talking about, the roads that we 
build and drive on and what it takes to get the goods to 
market.
    Senator Inhofe. Well, I am using up too much of my time on 
that one. I think we are trying, I am getting my point across. 
For me to get something done, you have to help me, and I have 
to have support out there in saying, we want to get back to 
building roads and bridges. Yes, Mr. Dorey, we support that.
    Mr. Dorey. I would like to comment on that. I think it is a 
very good question, and I think you raise, whether it is a real 
concern from the standpoint of how big it is, I suppose it is 
debatable. But certainly from a perception standpoint, it is a 
real concern.
    Senator Inhofe. It is perception.
    Mr. Dorey. I would encourage all of us to think about how 
we figure out what the right stuff to build is with the revenue 
that comes from, in this case our user tax revenue. It would be 
hard for me to defend a bike path. Having said that, if we have 
a congestion issue at a particular location, and the 
alternative is to tear down that interchange and rebuild 
another one to the tune of $100 million or whatever it might 
take, versus some other alternative that may not be made out of 
concrete or blacktop, maybe it is a public transportation 
alternative, and that is cheaper than tearing that interchange 
and doing it in the traditional way, it is hard for me to 
consider why we wouldn't consider that.
    Now, that may be an altogether different question than how 
you fund it. I don't know. But we need to be smart about what 
we build. I think we are at a point now where we can't be 
wasting money just building stuff because we want to build it. 
We have to be building the stuff that brings the highest rate 
of return to our case.
    Senator Inhofe. My time has expired. I want to say this, 
you are right, the problem there is perception. That is 3 
percent, it doesn't make any difference, people think it is 90 
percent. Remember the earmark debate out there? Everybody 
thought the earmarks were 99 percent of discretionary spending. 
They are 1 percent. So it is the perception. I don't want 
people to go out there and talk about something that is totally 
unrelated to transportation. That is my goal.
    Last, the Chairman is right. She said that, she and I had 
an amendment, actually, to that stimulus bill. Three percent, 
you are right, Mr. Poupore. That is outrageous when you stop 
and think, if we could have had, if that up to 30 or 40 
percent, and whether they are shovel-ready or not, we happen in 
Oklahoma to have enough stuff ready that we could get done, as 
you well know, Susan. Anyway, we are with you on wanting to do 
that. I would like to see, from the message last night, some 
action that we are actually, before we do anything stimulus, 
that we can turn as much of that into the very subject of this 
committee, I think it would be very helpful.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    Senator Whitehouse. Thank you, Madam Chair.
    Madam Chair, we had a really terrific briefing under the 
auspices of this committee in Rhode Island last March to 
discuss the impact of the Recovery Act on our transportation 
infrastructure, with the participation of our Director of 
Transportation, Michael Lewis, who has been rehired by our 
former colleague, Senator Chafee, who is now the Governor, to 
stay in that position, which is good news, a real estate 
developer named Jeffrey Saletin, and the president of the 
Construction Industries of Rhode Island, Stephen Cardi. I would 
like to put the transcript of that hearing into the record, if 
I could have unanimous consent.
    Senator Boxer. Without objection, so ordered.
    [The referenced material follows on page 67.]
    Senator Whitehouse. One of the things that was significant, 
to echo the points that our speakers have made, the developer, 
Jeffrey Saletin, had a piece of property in Johnston, RI, that 
had been abandoned for decades. It was a decrepit old shopping 
mall. One of the reasons that the property was in disrepair was 
that the main access road to it was under-sized, rundown, the 
exit was unsafe, it made a very unappealing road frontage.
    So with the assistance of the mayor of Johnston, Mayor 
Policina, we were able to get funding for that front 
improvement and behind that came tens of millions of dollars in 
private investment. What was an abandoned eyesore along one of 
Johnston's main routes is going to be developed into a very 
successful shopping plaza.
    So I wanted to share that from the hearing, because it 
confirms what we are saying. This isn't about just putting 
picks and shovels and bulldozers and paving machines into the 
ground. It is about the follow-on effect when that 
infrastructure is present. I contend, as I think my colleagues 
agree, that we are woefully behind in this. My question for the 
witnesses is, what do you think is needed? What data points can 
you give us to become better advocates for what is needed to 
maintain and improve our current transportation system?
    The data points that I have are these: DOTs conditions and 
performance report shows that about 53 percent of highway miles 
traveled by Americans are on roads that are in less than good 
condition; that almost 30 percent of our bridges are 
structurally deficient or functionally obsolete, and it is 
higher in the northeast, where I am from; that there is an 
annual investment gap of about $27 billion just to maintain our 
current systems, and if you look at improving them to meet 
needs of growth, then the investment gap is annually nearly $96 
billion; that we are only spending 2 percent of our GDP on 
infrastructure, our competitors in Europe are spending close to 
5 percent, and our main competitor, China, is spending close to 
9 percent of its GDP on infrastructure. We are down 50 percent 
from the 1960s in terms of Investment as a percentage there of 
GDP.
    So those are the data points that I have. I would love to 
have, in the 2 minutes that remain, those of you who have some 
additional data that can help us arm ourselves for this debate 
give us any further information on how far behind we are.
    Ms. Martinovich. Senator, thank you. I will be quick, a 
couple points. AASHTO does agree and supports the information 
that you just provided. On a more at-home, with Nevada, it is 
that almost 70 percent of the goods that come into this Country 
come in through the west coast, and then they travel across the 
western States into the east. So that is very particular for 
our infrastructure, and of the roads that the Department of 
Transportation owns. We carry almost 80 percent of that heavy 
truck traffic. And we are responsible for that.
    So a lot of the western States are responsible for the 
interstates, Interstate 80, I-15 and the other roads. So for us 
to keep that going, we need the time and the money so we can 
make sure goods are traveling across the States and this 
Country. Thank you.
    Mr. Dorey. I would direct you to my written testimony, it 
has some of those data points in it. In my oral presentation, I 
talked about what I think one of the most compelling data 
points is, and this is a California statistic, but I think it 
is relevant to most growing populations. California's vehicle 
miles traveled is growing 10 times faster than lane miles.
    TRIP, which is a very respected third party transportation 
data organization, suggests that congestion costs the average 
American $750 per year in wasted time and fuel. Crumbling roads 
cost an additional $590, additional, in vehicle maintenance per 
year. Here is a really important data point: deficient roadway 
conditions contribute to more than one-half of U.S. fatalities. 
More than drunk driving, speeding, or failing to use seat 
belts. If this is anywhere close to being true, and it is not 
my statistic, if it is anywhere close to being true, we have a 
lot of work to do to keep America safe.
    Senator Whitehouse. Thank you. My time is expired.
    Senator Boxer. Thank you so much, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Ms. Martinovich, first, we all noted 
your family situation, you talked about your son having been 
injured. We all wish him a full and speedy recovery. That is 
one of the things that we have to contend with in our things 
that we are doing today, and that is to make sure that we take 
care of our veterans. As we would like them to come forward and 
serve, we want to make sure that if they do, we pay all the 
expenses necessary for them to come back in the same condition, 
at least, as they left. I am sorry to divert, but that is a 
topic that we have to deal with regularly.
    The theme, obviously, runs through very quickly to jobs. To 
jobs. It seems to me that the transportation construction 
industry is one of those that has such an able work force, 
ready to go to work tomorrow if necessary. Where could we find 
a better investment for our future than in doing that? So the 
question I raise is, Mr. Dorey, where do you think the funds 
ought to come from to take care of the needs that you have all 
outlined that we have? You talked about funding.
    Mr. Dorey. I think they should come from the users. How we 
extract those fund from the users and invest them in the----
    Senator Lautenberg. Extract them is right.
    Mr. Dorey. Yes. How we do that I suppose is open for a lot 
of debate. I have a point of view, I am not sure we have time 
to debate that. But I think it should come from the users.
    Senator Lautenberg. Anybody disagree with that? Yes, where 
would you think, sir?
    Mr. Johnson. I don't necessarily disagree. What I would say 
is that shippers are willing to pay their part. We have said 
that all along. We use the transportation, we depend on it 
desperately, we need a good infrastructure. So we are there, we 
are willing to pay our part.
    Senator Lautenberg. Trucking industry----
    Mr. Johnson. Trucking, shippers, manufacturers.
    Senator Lautenberg [continuing]. Willing to pay their part.
    Mr. Johnson. Right. We need increased productivity on our 
highways to keep our costs down.
    Senator Lautenberg. Coming from New Jersey, our geographic 
structure puts us as a major course for traffic going north and 
south and vice versa. We have really heavy duty on our roads, 
truck traffic is enormous. It is very hard to keep up with it. 
Talking about allocation of funds, we look at it not just for 
our taxpayers to pay their share, because their share then 
includes lots of other traffic that is supporting our national 
well-being. How you do that is a serious problem.
    The Federal Commission has recommended the creation of a 
national freight transportation program. Current Federal 
investments have largely focused on highways and aviation to 
move our freight. Very little investment really in rail or port 
infrastructure. Might a focus on what we can do to improve 
those facilities make a difference in relieving the present 
structure of some of the traffic problems that would cause the 
deterioration and meet the construction that we seek?
    Ms. Martinovich. Senator, I think that they would. But the 
transportation system has to act as a system, that everything 
works together. The roads can be designed to help with the 
transit, and get people in buses, if there is reliability. The 
goods and movement can happen through rail or through the ports 
and other ways. So it needs to act as a system and work 
together.
    So if you improve one, I think there is benefit in the 
whole picture.
    Senator Lautenberg. Might a separation of freight and 
faster traffic on the roads make things easier to work with and 
more efficient?
    Ms. Martinovich. Yes, sir.
    Senator Lautenberg. Mr. Dorey, you talked about the current 
design, and not really facing up to the problems or the 
opportunities that you have out in the future. We talked about 
technology and almost driverless cars on the road, and making 
more efficient use of the highways. I don't know quite how you 
do all those things. But one thing I do know, I was a 
commissioner of the Port Authority of New York and New Jersey 
before I came to the Senate. My focus there, and I used to run 
a company called ADP, and we had a lot of traffic out there 
delivering payroll checks. There were constantly, even in those 
days, and I don't want to tell you how far back it goes, you 
will think I am talking about horse and wagons, but the fact of 
the matter is that what we saw 50 years ago in terms of traffic 
congestion has not changed, only to worsen.
    So thank you, Madam Chairman, for this discussion. The 
witnesses were very good. The common theme, jobs, get to work, 
get America going again, is a very important one.
    Senator Boxer. Absolutely. Thank you, Senator Lautenberg.
    Senator Cardin.
    Senator Cardin. Madam Chair, thank you for conducting this 
hearing. I would ask consent that my opening statement be made 
part of the record.
    I want to thank all of the witnesses. I strongly agree with 
the consensus here that we need to get a surface transportation 
reauthorization enacted, it needs to be long-term, it needs to 
speak to the investments that are necessary and it needs to be 
adequately funded. So I support strongly the general consensus.
    I just want to take issue with Senator Inhofe's explanation 
of what he calls the 3 percent. Mr. Dorey, I want to agree with 
your comments about, we need to look at multi-modal 
transportation in the discussion. We have to be more efficient 
in the way that we design the transportation infrastructure for 
the future. Yes, the overwhelming amount of dollars that are 
going to be authorized are going to be for traditional types 
and modes of transportation, whether they be roads or whether 
they be bridges, or whether they be conventional transit issues 
that we have confronted in the past.
    But we need to look at smarter ways. I think your example 
of the interchange is exactly right. I live in Baltimore. We 
are looking for ways of connecting the waterways of Baltimore 
with our transit. That may be seen by Senator Inhofe in that 3 
percent, which has me concerned. Because we believe we can save 
considerable money by bringing people into Baltimore through 
our waterways, rather than building another transit line or 
another major highway.
    So I think we need to take a look at ways that we can 
connect and be more efficient. Baltimore was designed by 
Olmsted. And he connected communities through green space. We 
are looking at ways of trying to connect communities again so 
they don't have to use our roads, so we don't have to build as 
many roads. To me, that saves money in our transportation, and 
it is the right investment for our Nation.
    So Madam Chair, I just really want to make a point. I think 
every dollar that we authorize has to be spent efficiently and 
appropriately for transportation in this Country. But let us 
not be afraid to look at alternative ways that can save money, 
create jobs, and then have more dollars available for the 
expensive projects that we know we need to build, such as high 
speed rail, that is going to be necessary to connect our 
cities. We have to do this in a more cost-effective way.
    I want to thank Senator Inhofe for getting me excited about 
this bill, and have more conversation about it. But I hope that 
we do look for creative ways. I think the witnesses here have 
really added to this debate. I thank you for the constructive 
manner in which you have presented this. Mr. Poupore, I think 
the numbers you gave on employment, I am going to agree with 
Senator Inhofe, I think we can't visualize how many Americans 
have been adversely impacted because we don't have construction 
going on, and how important construction is to the economy of 
America. If we can get our economy back on track, believe me, 
we are going to have a lot more opportunities to build the 
infrastructure we need for the future.
    So I found the hearing very helpful, Madam Chair, and I 
thank you very much for calling it.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Good morning Madame Chairman, Ranking Member Inhofe, Members of the 
committee and our panel of witnesses. It's great to be starting another 
session of Congress and immediately launching into matters concerning 
authorizing the next surface transportation bill. This must be a top 
priority for EPW, Senate Banking and Commerce Committees, and for 
Congress on the whole.
    The focus of today's hearing on the correlation between 
transportation and job creation and economic growth is precisely why 
authorizing a new transportation bill must be done soon. Fast and 
efficient intermodal transportation systems, both figuratively and 
literally, drive our nation's economy. Better development of a seamless 
intermodal transportation network is critical to sustained economic 
growth and keeping America competitive in an increasingly globalized 
economy.
    Most of our witnesses here today can testify to the job creation 
potential that lies within the transportation infrastructure 
construction itself. Without a doubt, road projects create important 
domestic jobs that need to be restored to our economy.
    However, I want to highlight the bigger role transportation plays 
in fueling domestic productivity and economic growth, with a focus on 
maximizing the efficiency of transportation system to best serve 
residential and commercial communities.
    Travel delays on congested roads and highway have tremendously 
negative impacts on lost work hours, worker productivity, and 
commercial logistics. This is especially true in urban and suburban 
communities where freight, commercial personal transport all mix 
together to create enormous traffic jams affecting everyone involved.
    Improving the overall functionality of our complete transportation 
system is what it means to improve the ``livability'' of our 
communities, because being stuck in traffic for 2 to 3 hours a day, is 
no way to live. This is an unfortunate reality for all too many 
communities, the Greater Washington Metropolitan Area being one of the 
worst, stemming beyond mere inconvenience, into being a genuine drain 
on our economy.
    Freight transport in Maryland is a perfect case-study for why 
developing livable communities, emphasizing multi-modal transportation 
options, is important to our Nation's economy. It also demonstrates the 
interconnectivity of all transportation sectors.
    The Port of Baltimore is an enormous economic engine for Maryland 
and the entire eastern half of the country. Annually, the Port handles 
47.5 million tons of domestic and imported cargo, valued at $45.3 
billion. The efficiency in which the cargo moves in and out of the port 
is largely based on how congested the highways and railways are around 
Baltimore, which is directly affected by the number of cars on the 
road.
    Maryland's consolidated transportation plan takes a comprehensive 
approach to developing the state's transportation system and not 
developing the modes separate from each other. This interconnected 
approach helps improve efficiencies across the board.
    For example, Maryland's plans to develop new transit lines in 
Baltimore, in between Prince George's and Montgomery Counties inside 
the Beltway, in Northern Montgomery County are designed to provide 
increased transportation options for the large and growing commercial 
residential communities.
    Improving transit in these communities will provide a faster and 
more reliable transportation option for people to use to get to and 
from work. Getting more people to use transit systems will alleviate 
congestion on area roads and highways which will improve the shipment 
and delivery of goods to regional markets.
    The creation of new jobs in the transportation sector will result 
from working to meet national transportation goals designed to improve 
transportation efficiency.
    Improving local and regional transportation systems at the micro 
level will have tremendous economic benefits at the macro level. Making 
these improvements starts with this committee and our colleagues on the 
other Senate Committees we must work with to put together the next 
transportation bill.
    While investments in transportation infrastructure are required for 
the U.S. to remain competitive in our global economy, the Federal 
Government's role extends beyond these investments to Federal 
transportation and energy policy.
    In prior hearings, we've heard that we need to get people out of 
their cars and into fast, convenient, and reliable mass transportation 
systems. That will take a major investment. Such an investment improves 
the quality of our travel and supports the increasing demands that 
commerce places on the roads and railways of our country.
    This required investment is not for convenience but is a necessity 
to help our Nation's economy to continue to grow in the longer term.
    It is my belief that Federal investment in public transportation 
should be a national priority. Our nation receives extraordinary public 
benefit from mass transportation systems. These systems take thousands 
of cars off our congested highways. Transit takes tons of pollutants 
out of the air we breathe and moves people efficiently into and out of 
our most important commercial centers.
    Congress must encourage smart growth through funding transit-
oriented development with upgrades to transit facilities, bicycle 
transportation facilities, and pedestrian walkways.
    Congress should create Federal tax incentives for employers who 
provide telecommuting to their employees. Telecommuting has 
successfully reduced traffic and energy use, and the EPA reports that 
if just 10 percent of the nation's workforce telecommuted just 1 day a 
week, Americans would conserve more than 1.2 million gallons of fuel 
per week.
    I look forward to hearing from our witnesses, and to working with 
my colleagues on this committee and with our colleagues on Banking and 
Commerce to define the appropriate role the Federal Government should 
have in our Nation's surface transportation system and to identify and 
address our national surface transportation investment needs as a means 
of improving economic growth.

    Senator Boxer. Thank you.
    Senator Baucus is next. I just want to say how happy I am 
to see him here. He has such a heavy workload as Chairman of 
the Finance Committee. I want to work so closely with him. He 
has the tough job, essentially, of trying to figure out new 
ways to fund the Highway Trust Fund. We are going to work very 
closely with him and lighten his load on that, this committee 
will.

 STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Baucus. Thank you, Madam Chair. We have together a 
tough job, getting all this put together.
    Thank you very much for holding this hearing. Just a couple 
of points here. One is the obvious, namely, this is a non-
partisan issue. We are all in this together. Sometimes that is 
an overworked word, working together, but that is clearly true 
in this case. There is great strength and synergy in working 
together. I compliment all of you for making that point very 
clear and encourage you to keep it up, I know you will, and 
remind people that you are working with of that very 
phenomenon. This is totally non-partisan.
    Therefore, it is an opportunity for us here in the Congress 
to make very significant headway, plow ahead, well, maybe some 
of these issues are partisan, this is one that is not. So let's 
get going here, let's get the funding we need and the 
programming we need and maybe even set an example. That might 
be a bit too ambitious, but at least let's try to take 
advantage of the opportunity.
    Second, and these are just random points, I would remind us 
all, in States like Montana we are also very much a part of all 
this. We are a rural State. We have more, I think, we have more 
Federal highway miles per capita than any other State in the 
Nation. We are a highway State. This may sound strange, but we 
love our highways. A, we need them; B, we have a beautiful 
State, we like driving our roads from one town to another. 
Billings to Bozeman to Missoula is just gorgeous scenery. I try 
not to offend my colleagues, it is not like driving in some 
other States, but it is driving in a very beautiful State, we 
really like our highways and need them.
    In addition, I might remind everyone that most truck 
traffic in Montana does not originate or end in Montana. We are 
somewhat of a through State. Ms. Martinovich alluded to that, 
I-90, I-15, a lot of trucks go through our State. Therefore, 
those folks on the west coast through east coast and mid-
America depend heavily on having very good highways. In our 
State, too, so there is less damage to the vehicles and so 
forth, and we can move very quickly.
    These are wonderful people, folks who work construction 
jobs. I one day a month work at some job at home, wait tables 
all day long, show up at 8 in the morning with a sack lunch, I 
have worked in highway jobs, hospitals, what-not. I have had 
six or seven highway jobs in the last couple of years. I have 
operated all kinds of equipment, made a lot of mistakes on that 
heavy equipment. Been at the working end of an idiot stick, lot 
of shovel work and so forth. But they are just wonderful, 
wonderful people, the heart and soul of America, these men and 
women. They are not complaining, through a lot of hard work in 
all kinds of conditions. It is important to keep that in mind 
as well.
    The points that you made, Mr. Johnson, are so, so obvious 
and so important, about the just-in-time inventory, and that it 
is so important for American businesses so they can get their 
inventory right there, they have to be very efficient.
    My main point here is that we have to create an even 
greater sense of urgency than we have thus far. This is serious 
stuff. The President touched on it in the State of the Union 
message last night, when he mentioned the importance of a good 
infrastructure system in America. Not only in absolute terms, 
but also on a comparative basis, compared with what other 
countries are doing. I don't know how many of you have seen the 
Chinese interstate system, China is constructing 55,000 miles 
of interstate. We have about 44,000 miles in America.
    I have been on those highways in China. I was amazed, I got 
off the plane in Chongqing, Central China, a couple of years 
ago. First of all, at the airport, it was one of the most 
modern airports I've ever seen. It blew me away. Our counsel in 
Chengdu, not so far away, was quite upset that no American 
company bid on that airport. German companies did, but not 
American. Those jobs were over in China, but still those could 
be a lot of American jobs, too.
    Then I drove on a highway. This was one heck of an 
interstate. It was big. There are 33, 34 million people in 
Changqing area. Its fancy hotels, and the highways, that is 
just one location, one country, and the President basically 
alluded to this last night when he said, it is essential to the 
economy, this is where we build a highway. Katie bar the door, 
doesn't make any difference what communities we plow through, 
that is where we build these highways. We can't do that in this 
Country. But we still can maintain, upgrade, and build a much 
better system.
    So we can be the envy of the world like we were when we 
built the interstate. We were it, in America. Well, it is an 
opportunity for us to be it again. That raises questions about 
financing. We all know the problems and the plight of the trust 
fund, the user fees and so on and so forth. I strongly 
encourage you to light a fire under yourselves and your 
membership, and find really creative ways to figure out how we 
can use the same financing mechanisms and find some new ones. 
We have to have additional dollars somewhere, just by 
definition, or we are going downhill. Maybe some borrowing 
mechanisms that you have in mind, in addition to the usual user 
fees.
    I am reminded too, this is not totally on point, we had an 
earlier transportation bill, wasn't too many years, it was a 
good number of years ago, where we got that additional 4.3 
cents, it was transferred from the general fund to the trust 
fund. That gave us extra money. That was the second to last 
major bill. Robert Byrd went around and got all the main groups 
in a room.
    There were about maybe 20 or 30 people. He went around the 
room and he talked to each person. He started with, 
figuratively, representatively, you, Mr. Johnson, OK, Mr. 
Johnson, you tell me what you and your organization is doing to 
get this bill passed. You tell me right now. He went all the 
way around the room, each person. He said, I am going to invite 
you all back here in 2 weeks and I am going to ask you again 
what you have done in the last 2 weeks. He did it. I was in the 
room. I was very, very impressed, as a way to help gin things 
up.
    We are here to pass hopefully good legislation. But we work 
for all of you and we are the representatives for the people 
who elect us. We need to get you all fired up even more, so 
that this is put more on our front burner rather than our 
middle burner or back burner. I am just issuing this challenge, 
because you have a very sympathetic committee here, very 
sympathetic, and we want to help out.
    I tell people sometimes that work for me, I don't want to 
have to kick you, I want to have to rein you in. Make me rein 
you in, not have to spur you, make me rein you in because you 
are doing too much. That is my challenge is to make us get to 
the point where we have to think about maybe reining you in, 
because you are doing too much.
    I just thank you so much, Madam Chairman, for this hearing. 
It is so important, it is so needed. There is such a sense of 
urgency here. I stand ready to work with you to do all I can to 
get this accomplished.
    I have a lot of things to say but that is the main point. I 
hope we have a good followup hearing. What I might do, now that 
I am thinking about it, maybe we can call each of these 
wonderful people back and ask them at this hearing, what have 
you done? What is the progress report? How many more people are 
lined up to do what? What are the benchmarks, what are the data 
points? Names, dates and places, that kind of thing. It may or 
may not work, Madam Chairman. You are the chairman, that is 
your decision. I am just trying to help find ways to get us 
moving along.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Madam Chairman, thank you for scheduling this hearing on the 
significance of transportation to our overall economy and to job 
creation.
    The president touched on these things in his State of the Union 
address.
    Another president from Illinois, Abraham Lincoln, once said:

    ``The legitimate object of government is to do for a community of 
people whatever they need to have done, but cannot do at all, or cannot 
so well do for themselves--in their separate and individual 
capacities.''

    That is the Federal role in funding roads, highways and bridges. In 
the 20th Century, that perspective enabled us to build the world's 
leading transportation network, with Federal leadership.
    As I have said numerous times, rural areas rely heavily on the 
Federal-aid highway program.
    My home State of Montana is a highway state. In fact, we like to 
say Montana is like one big neighborhood with really long streets.
    The one thing we know for sure in Montana is that our 
transportation system serves us all.
    Our roads serve Democrats, Republicans, Independents and everyone 
in between. I urge my colleagues to recognize that we can unite around 
this issue because not only does our transportation system cross county 
and State lines, it reaches across party lines.
    Most of the highway users in my State aren't even actually from my 
State. Data from the Federal Highways Administration shows that 62 
percent of all truck movements in Montana neither originate nor end in 
Montana. That figure is almost 20 percent higher than the national 
median for states. It shows how interconnected our economy is--
regardless of State borders.
    Montana relies on federally funded roads for its tourism industry 
where 90 percent of our non-resident tourists enter the State by car 
during Summer.
    We also need good roads to transport beef, wheat, oil, gas and 
other products to distant sites across the country and to coastal ports 
for trade with far-off places like Latin America and Asia.
    According to University of Montana economist Patrick Barkey, that 
export economy is precisely where Montana is best positioned to achieve 
growth in the near future, which simply wouldn't be possible without 
reliable infrastructure.
    Our national network fostered innovation such as ``just-in-time 
delivery'' and ``supply chain management'' that provide great 
convenience to American businesses and consumers.
    But, as we learned during a hearing on Global Competitiveness in 
the Transportation and Infrastructure Subcommittee, places like Europe, 
China, India, Brazil and other areas have recently dedicated great 
resources to establishing and upgrading their own infrastructure 
networks.
    This has enabled those countries to achieve considerable growth of 
their own in the 21st Century, while capitalizing on those farm-to-
market, just-in-time, and supply chain management innovations.
    We clearly need to do more. National unemployment in the 
construction sector remains dangerously high at almost 20 percent. 
Where Montana's economy remains weak is also in the construction 
sector.
    Applying the Federal Highways Administration metric--where one 
billion dollars in Federal-aid highways money creates or supports more 
than 34,000 jobs--there are more than 18,000 jobs in Montana depending 
annually on our Federal highways program. Transportation funding under 
the Recovery Act supported approximately 5,000 more jobs in Montana.
    Still, employment in Montana's construction sector has seen a 35 
percent decline in employment since 2007, even with the influx of 
Recovery Act funds.
    Incidentally, I was especially struck by the House Transportation 
Committee's report that Ms. Martinovich highlights in her written 
testimony where construction projects under the Recovery Act saved us 
more than $800 million as a nation in unemployment checks.
    We have an opportunity to work together to create jobs TODAY--and 
build a better way for our kids and grandkids to navigate the Nation 
for tomorrow. To win the future as the president said. We may not do it 
all with this bill, but this bill is the start.
    My bosses in Montana expect us to work together and help create 
jobs.
    As I see it, perhaps there is no other better issue area that we 
can truly come together regardless of party politics and work toward 
our goals of creating jobs.
    Transportation investments help us to do both while leaving our 
nation in better shape for future generations.
    This is the year to pass a Highway Bill. Our economy needs it.

    Senator Boxer. Well, let me respond first of all, your 
words are music to my ears, because I am a big believer in 
working with the stakeholders. As a matter of fact, the 
extension that we got done together, the last time, I would 
just like to say, would not have gotten done without all the 
help of the various organizations, including the Chamber of 
Commerce, and the unions and everybody working together to push 
that extension through for a longer period of time. Because 
there was some talk of just doing an extension for 30 days or 
60 days.
    So I am a great believer in the Robert Byrd-Max Baucus idea 
of working together. We know what to do here inside the Senate, 
but we need to have people on the outside helping us tell our 
colleagues, because they are not necessarily, they are busy on 
their committees.
    I think, if I could say, Raymond, your eloquent, all of you 
were eloquent, but this notion of how many stadiums, Super Bowl 
stadiums? Twenty Super Bowl stadiums full of unemployed 
construction workers.
    Senator Baucus. In my State, it is a 35 percent decline 
since 2007.
    Senator Boxer. We do have, and Bettina is reminding me, we 
have a bipartisan meeting planned with all of the groups, 
Boxer-Inhofe are calling it. So we are already on it.
    What I love about being in the Senate is hearing different 
expressions from different members from other parts of the 
Country than mine. I have never said, I am going to rein you in 
or spur you on. But that is something I might do now in the 
future.
    Senator Baucus is right. This is so critical. We cannot 
afford to pass up this opportunity. We need a multi-year bill. 
It has to be robust. We have to strip out things, I agree with 
Senator Inhofe in general. To me a bike path is a way of 
transport. A lot of my people use it to get to work, I will 
tell you that right now.
    But there are other areas, if there are museums in this 
bill or other things somehow, that is not right. So I have 
already asked my staff to go through the old bill and circle 
any of these things, even if it is a small amount, we can't do 
that. This has to be an infrastructure bill. Safety is 
included, there are other things we can do, but they have to be 
all related.
    Let me ask unanimous consent to insert statements in 
support of action on the transportation bill from the following 
organizations, which will also be called in and be sitting 
around the next table: American Society of Civil Engineers; the 
American Concrete Pavement Association; the Asphalt Pavement 
Association; the Ready-Mix Concrete Association; Stone, Sand 
and Gravel Association; Portland Cement Association and 
American Association of Port Authorities. I will do that.
    [The referenced material follows on page 83.]
    Senator Boxer. I wanted to just take a moment, a very swift 
moment to say, welcome to Randall Iwasaki. Where are you, 
Randall? We are so happy you are here, executive director of 
the Contra Costa California Transportation Authority. We are 
very happy to have you here.
    We are fired up and ready to go on this and we need all of 
you to help us. So we are looking forward to further hearings.
    Thank you. We stand adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow.]
   Statement of Hon. Mike Crapo, U.S. Senator from the State of Idaho
    As we talk about national transportation issues, we must ensure 
that Federal legislation continues to distribute highway funds in a way 
that recognizes that there is an important national interest in 
transportation investment in and across rural states, not just in more 
heavily populated areas.
    I'd like to point out a few of the many advantages there are to 
investing in rural states. A good transportation infrastructure 
provides resources allowing people to move safely and efficiently to 
school, work, around town. It also facilitates the relationship between 
the farms, factories and distribution centers and their consumers by 
getting product into stores. Rural states often serve as a bridge for 
truck and personal traffic between states, thus advancing interstate 
commerce and mobility, a factor which has become increasingly important 
with the abandonment of many rail branch lines. Finally, it enables 
people and business to traverse the vast tracts of federally owned land 
and provides access to the scenic beauty in our State and elsewhere.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
